NO._______________

IN THE
SUPREME COURT OF THE UNITED STATES
OF AMERICA
MARIA TERESA DUARTE GODINEZ
Petitioner-Defendant
v.
UNITED STATES OF AMERICA
Respondent
On Petition for Writ of Certiorari from the
United States Court of Appeals for the Fifth Circuit.
Fifth Circuit Case No. 20-60596
MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS
Pursuant to Rule 39 and 18 U.S.C. ยง 3006A(d)(6), Petitioner Maria Teresa
Duarte Godinez, requests leave to file the accompanying Petition for Writ of
Certiorari from the United States Court of Appeals for the Fifth Circuit without
prepayment of costs and to proceed in forma pauperis. Petitioner was represented
by counsel appointed under the Criminal Justice Act, 18 U.S.C. ยง 3006A (b) and
(c), in the United States District Court for the Southern District of Mississippi and
on appeal to the United States Court of Appeals for the Fifth Circuit.

Date: June 28, 2021.
Respectfully submitted,

/s/ Peter H. Barrett
PETER H. BARRETT
P. & W. BARRETT LAWYERS, PLLC
2202C 25th Ave, C-3
Gulfport, MS 39501
Phone: (228) 864-9885
Attorney for Defendant Petitioner

